No:

IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2019

TELLY KAVANTZAS,

Petitioner,
v.

 

SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,

Respondent.

DECLARATION VERIFYING TIMELY FILING

Petitioner, Telly Kavantzas, through undersigned counsel and pursuant to

Sup. Cr. R. 29.2 and 28 U.S.C. ยง 1746, deciares that the Petition for Writ of |

 

Certiorari filed in the above-styled matter was sent in an envelope via third party
commercial carrier for delivery within three days, addressed to the Clerk of the
Supreme Court of the United States, on the 10th day of July, 2020, which is timely

pursuant to the rules of this Court.

MICHAEL CARUSO

FEDERAL PUBLIC DEFENDER
Fort Lauderdale, Florida By:__Janice L. Bergmann.
July 10, 2020 Janice L. Bergmann_

Assistant Federal Public Defender
One East Broward Blvd., Suite 1100
Fort Lauderdale, Florida 33301
Telephone No. (954) 356-7436
